                                                         September 28,2006
To:    Brian Cartwright
       Conrad Hewitt
       Diego Tomas Ruiz

From: Walter Stachnik

Re:    Audit of Oversight of PCAOB (Audit No. 412)

Attached is our audit report on the oversight of the PCAOB. Your comments
on the draft report have been incorporated as appropriate.
We would appreciate receiving any additional comments you have concerning
this audit and the report. In particular, we would like to know whether you
found the audit useful. We also welcome any suggestions from you
concerning how we could improve future audits.
The courtesy and cooperation of you and your staff during this audit are
appreciated.
Attachment
cc:   Chairman Cox
      Commissioner Atkins
      Commissioner Campos
      Commissioner Nazareth
      Commissioner Casey
      Corey Booth
      Bob Burns
      Ben Cohen
      Richard Hillman
      Richard Humes
      Joan McKown
      Meridith Mitchell
      Nancy Morris
      Zoe-Vonna Palmrose
      Darlene Pryor
      Lori Richards
      Linda Thomsen
      Peter Uhlmann
      John Walsh
      Other staff who participated in the audit
           OVERSIGHT OF PCAOB

                    EXECUTIVE SUMMARY
We reviewed the Commission's oversight of the Public Company Accounting
Oversight Board (PCAOB or the Board), which was created by the Sarbanes-Oxley
Act (SOX or the Act) of 2002. Our recommendations concern the Commission having
the PCAOB seek reports on the Board's internal controls and compliance with laws
and regulations; oversight of the PCAOBJs h u m a n capital and disaster contingency
planning; policies and procedures for certain Commission responsibilities under
SOX; timely Commission review of proposed PCAOB rules; documentation of the
Commission review of PCAOB rules; and possible delegations of authority within the
Commission.
Commission management generally concurred with our recommendations. Their
written comments are attached in the Appendix.



OBJECTIVES, SCOPE, AND METHODOLOGY
Our objective was to determine what improvements could be made to the
Commission's oversight of the PCAOB. To help identify possible improvements, we
evaluated the Commission's compliance with the oversight requirements in the Act.
We also evaluated implementation of the recommendations in the Government
Accountability Office's (GAO) report (number 03-339, dated December 2002) on the
selection process for Board members.
Our audit scope included the significant responsibilities assigned to the Commission
in Title I of SOX including but not limited to Section 107 of Title I (Commission
Oversight of the Board). We did not audit the PCAOB's operations. Also, we did
not review Commission staff interpretive guidance given to the PCAOB.
We could not evaluate the implementation of certain Commission policies and
procedures (e.g., appeals of disciplinary actions) because the PCAOB was created
relatively recently. Instead, in these instances, we considered whether the
Commission's policies and procedures appeared to be reasonably designed.
Our methodology included interviews of Commission staff, Commissioners, and
PCAOB senior staff, and review of supporting documentation regarding Commission
oversight, among other procedures.
The audit was performed from September 2005 to July 2006. We conducted this
performance audit in accordance with Generally Accepted Government Auditing
                                                                             Page     2


Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence that provides a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.


                            BACKGROUND
General Information
The Act (Public Law 107-204)was enacted in July 2002 in response to numerous
financial-related scandals involving public companies (e.g., Enron and WorldCom)
and their auditors (e.g., Arthur Andersen). Among other reforms, the Act
established the PCAOB as a nonprofit corporation. Pursuant to the Act (Section
101(d)), the Commission determined that the PCAOB was organized and had the
capacity to carry out its responsibilities in April 2003.
Prior to the Board's establishment, the American Institute of Certified Public
Accountants (AICPA) issued auditing standards for financial audits of public
companies. In addition, the Public Oversight Board oversaw a voluntary peer
review, self-regulation program for accounting firms.
Certain roles of the states (e.g., licensing) and the Commission (e.g., conducting
investigations of accountants' violations of the securities laws and bringing
disciplinary actions against accountants) vis-&-visaccountants were not changed by
the Act. However, the Commission now has oversight of the PCAOB, and the
PCAOB coordinates its enforcement efforts with the Commission.
The PCAOB's statutory mission is to "protect the interests of investors and further
the public interest in the preparation of informative, accurate, and independent
audit reports for companies the securities of which are sold to, and held by and for,
public investors" (Section 101(a) of the Act). The Act requires that accounting firms
be registered with the PCAOB, if they "prepare or issue, or participate in the
preparation or issuance of, any audit report with respect to any issuer" (as defined
in Section 3 of the Exchange Act of 1934).
Within the Commission, the Office of the Chief Accountant (OCA) has primary
oversight responsibility for the PCAOB. Numerous other Commission offices also
have roles, including the Office of the Executive Director (OED), the Office of the
General Counsel (OGC), the Office of Information Technology (OIT), and the Office
of Compliance Inspections and Examinations (OCIE).
Budgeting and Funding
The PCAOB is required to establish a budget (Section 101(c)(7) of the Act), which is
subject to Commission approval (Section 109(b) of the Act). OCA, OED, and OIT
staff review the proposed budget, in consultation with PCAOB staff. The
Commissioners also may discuss the proposed budget with Board members. The
staff then recommends to the Commission whether to approve the PCAOB's budget.




PCAOB OVERSIGHT (AUDIT 412)                                    SEPTEMBER 28, 2006
                                                                                               Page   3


The Commission recently approved a rule (Release 33-8724, dated July 2006) to
improve the budget review and approval process. The rule established, among other
things, timeframes for completing certain milestones.
The PCAOB currently has approximately 450 staff, and its calendar year 2006
approved budget is approximately $131 million. The Board's headquarters is in
Washington, D.C., with seven field offices throughout the United Sates and a n
information technology center in Virginia. The Board is primarily funded through
a n accounting support fee assessed annually on public companies (issuers).
Registration
Section 102 of the Act requires public accounting firms to register with the PCAOB
if they perform financial statement audits of issuers. The registration process
includes the submission of a n application form. According to the PCAOB, as of
August 10, 2006, 1,690 public accounting firms were registered with the PCAOB.
Rule Making
Section 103 of the Act empowers the PCAOB to establish auditing, quality control,
and independence standards and rules1 for registered firms. To implement other
aspects of the Act (e.g.,its investigative authority), the PCAOB has established
bylaws and rules for its authorities (including a code of ethics for the Board).
Within the Commission, OCA is primarily responsible for reviewing the Board's
proposed rules. During the PCAOB's rulemaking, OCA staff provide input to the
PCAOB staff. OCA staff then recommends to the Commission whether to approve
the proposed rule.
Except for the initial and transitional standards, all PCAOB rules must be approved
by the Commission (Section 107(b)(2) of the Act). Section 107(b)(3) of the Act states
that "The Commission shall approve a proposed rule, if it finds that the rule is
consistent with the requirements of this Act and the securities laws, or is necessary
or appropriate in the public interest or for the protection of investors." As of July
2006, 19 rules had been approved by the Commission.
Inspections and Investigations
According to Section 104(a), the PCAOB conducts inspections of registered
accounting firms to determine whether they are in compliance with the Act, the
Board's rules, Commission rules, or professional standards when performing audits,
issuing audit reports, and related matters involving issuers.
Based on the Board's findings, the inspected firms may take corrective actions to
improve their compliance.
According to Section 104(b)(l)(A) of the Act, firms that regularly audit more than
100 issuers must be inspected annually. According to the PCAOB's 2005 annual
report, nine accounting firms were in this category as of December 2005.
According to Section 104(b)(l)(B) of the Act, all other registered firms must be
inspected at least once every three years. Almost 1,680 firms are in this category.


1   Throughout the remainder of this audit report, the term rules includes standards.


PCAOB OVERSIGHT (AUDIT 4 12)                                                      SEPTEMBER 2 8 , 2006
                                                                            Page       4



However, Section 104(b)(2) of the Act allows the PCAOB to alter these requirements
if alternative inspection schedules are consistent with the purposes of the Act, the
public interest, and the protection of investors.
As discussed in the findings below, registered accounting firms may appeal the
Board's inspection findings to the Commission. These appeals can relate to whether
a deficiency actually exists andlor whether corrective actions have been adequately
implemented (Section 104(h)(l) of the Act). OCA and other offices and divisions will
review these appeals and make appropriate recommendations to the Commission.
OCA indicated that no appeals had been filed a s of July 2006.
Section 105 of the Act gives the PCAOB the authority to conduct investigations and
disciplinary proceedings of registrants when rule violations may have occurred. The
Act describes the PCAOB's ability to obtain testimony and document production,
among other topics. According to the PCAOB's website (www.pcaobus.org), the
Board had filed five disciplinary proceedings a s of July 2006.
Pursuant to Section 107(c) of the Act, the respondent may appeal a n adverse
PCAOB decision in a disciplinary proceeding to the Commission. OGC staff would
consider these appeals and make a recommendation to the Commission. OGC
indicated that no appeals had been filed as of July 2006.

Other Oversight Issues
As discussed below, the Commission appoints Board members (Section 101(e)(4) of
the Act). First, the Commissioners nominate possible candidates. The Chairman's
Office, with OGC's assistance, will coordinate the background investigation (if
applicable), and additional vetting of candidates. The Commissioners then
interview prospective candidates and eventually vote on the Board members,
including the Board's Chairman.
Section 107(a) of the Act gives the Commission the authority to conduct inspections
of the PCAOB. OCIE staff conduct Board inspections in consultation with OCA.
The Commission approves the final inspection report before it is issued to the
PCAOB.
In May 2006, OCIE's initial inspection report was approved by the Commission.
The inspection covered the PCAOB's registration process, and the billing and
collection processes for the accounting support fee.



                          AUDIT RESULTS
We found that the Commission's oversight of the PCAOB can be improved. Our
specific findings and recommendations are described below.




                                                                                   -



PCAOB OVERSIGHT (AUDIT 4 12)                                  SEPTEMBER 2 8 , 2 0 0 6
                                                                             Page   5



APPOINTMENT PROCESS
The PCAOB consists of five Board members, who each serve a five year term.
Board members may only serve up to two terms. The terms of Board members are
staggered so that one member's term expires each year. The Commission appoints
the Board members and designates a Chairman, in consultation with the Chairman
of the Federal Reserve and the Secretary of the Treasury.
Section 101(e)(4)(A) of the Act required the initial Board members to be appointed
within ninety days after the passage of the Act. The Commission complied with this
requirement in October 2002. However, the selection process for the initial
appointments lacked adequate policies and procedures. Also, the urgency to appoint
the initial Board members contributed to problems with the selection process.
Subsequently, GAO reviewed the selection process (Report No. 03-339) and
recommended the following steps to the Commission:
      "reach agreement and document the process to be followed, the sequence and
      timing of key steps, and the roles to be played by the Commission and the
      staff in the selection and vetting of candidates;
      develop agreed-upon, detailed selection criteria for PCAOB members and the
      chairman that fully embrace the principles articulated in the Sarbanes-Oxley
      Act of 2002;
      develop a vetting process that ensures that before an applicant is brought to
      the Commission for serious consideration, certain minimum background and
      reference checks are performed to ensure that the individual has no potential
      legal or ethical impairments and ensure that the vetting process is completed
      before the Commission votes to appoint members to the PCAOB;
      determine what candidate information should be documented, analyzed, and
      shared among the Commission and staff."
In November 2005, the Commission approved new policies and procedures for the
nomination of Board members. Our review of the new policies and procedures
indicated that the Commission complied with the GAO recommendations.
In June 2006, the Commission announced the appointment of a new PCAOB
Chairman and the re-appointment of a Board member. We reviewed the
appointment of these two positions, and found that the new procedures were
properly implemented. Accordingly, we are not making a recommendation
concerning this issue.


AUDIT REPORTS
The PCAOB prepares annual financial statements, which are audited by an
independent public accountant not registered with the Board. However, the PCAOB




PCAOB OVERSIGHT (AUDIT 4 12)                                 SEPTEMBER 28, 2006
                                                                                                 Page     6



does not engage their auditor to report on its internal controls2 related to financial
reporting and on its compliance with applicable laws and regulations (e.g., PCAOB
Bylaws). Reports on internal controls and compliance could help the Commission
enhance its oversight and provide a reasonable assurance that the Board's controls
and compliance were adequate.
Commission staff conducts inspections of the PCAOB, and the PCAOB has a n
internal audit office. Inspections and internal audits can provide additional
assurance on the Board's internal controls and compliance. The Commission staff
does not inspect all of the Board's operations every year, similar to its practice a t
other Self Regulatory Organizations. Also, the Commission has not evaluated the
effectiveness of the PCAOB's internal audit office.

          Recommendation A
          OCA, in consultation with OED, should consider recommending to the
          Commission that the PCAOB engage their auditor to report on internal
          controls and compliance with laws and regulations.


HUMAN CAPITAL AND DISASTER CONTINGENCY PLANS
According to OED, it discussed the PCAOB's human resource strategy with the
PCAOB. OED indicated that the Board's strategy was reasonable, but it received
little documentation from the Board. Thus, we could not assess the adequacy of the
Commission's oversight.
OED also indicated that once the PCAOB's strategic plan is finalized, they might
recommend that the PCAOB develop a human capital plan. A human capital plan
helps a n organization determine the knowledge, skills, and abilities that its
employees need, based on the strategic direction of the organization. As a result, a n
organization can identify any gaps that it needs to address. In addition, the plan
helps recruitment and employee retention efforts.

          Recommendation B
          OED should ensure that it adequately documents future reviews of the
          PCAOB's human resource strategy and the human capital plan (e.g., based
          on Federal Human Capital standards), if applicable.


The Board is developing a disaster contingency plan. According to OCA, the plan
should address the Board's ability to resume operations (e.g., data backup of
inspection and investigation records) and provide the necessary guidance to
accounting firms (e.g., loss of issuer records), within a few days of a terrorist act or
natural disaster.

2   Pursuant to the Commission Order approving the PCAOB's 2005 budget, the PCAOB was required to
    perform a self-assessment on its internal controls, and develop a long range strategic plan for its
    operations and budget.


PCAOB OVERSIGHT (AUDIT 412)                                                    SEPTEMBER 28, 2006
                                                                              Page      7


       Recommendation C
       OCA, in consultation with OED and OIT, should review (e.g., based on
       Federal Continuity of Operations Plans) the Board's disaster contingency
       plan when it is completed. They should provide comments to the Board and
       the Commission, a s appropriate.


POLICIES AND PROCEDURES
Described below are oversight issues for which Commission policies and procedures
are needed:
       Commission review of appeals from PCAOB inspections of accounting firms
       (see bottom of page 3). According to OCA, it has been working with the
       PCAOB to develop appropriate policies and procedures. OCA indicated that
       no appeals had been filed a s of July 2006.
       Evaluation of PCAOB requests for subpoena authority during a Board
       investigation (Section 105(b)(2)(D) of the Act and Board Rule 5111). Issues
       needing resolution include whether the Commissioners will approve
       requests; how the request will be considered (at a closed Commission
       meeting, Executive Session meeting, or seriatim); and the role, if any, of the
       PCAOB in presenting the matter for consideration. As of July 2006, the
       PCAOB had not yet made any subpoena requests.
       Removal of Board members, censure of members or the Board, or relieving
       the Board of a responsibility (Section 107(d) of the Act).
       Investigations of alleged criminal or administrative misconduct by Board
       members or staff. The Commission does not have policies and procedures
       describing in what circumstances and to which offices the allegations should
       be reported (e.g., OGC, the Division of Enforcement, or the Office of Inspector
       General), depending on the nature and subject (i.e., a Board member or a n
       employee) of the allegations.

       Recommendation D
       OCA, in consultation with OGC and other affected offices (e.g., the Division
       of Enforcement and the Office of Inspector General) should develop policies
       and procedures for the issues described above. The policies and procedures
       should be submitted to the Chairman's Office for approval, as appropriate.


PROPOSED RULES
Timeframes
Section 107(b)(4) of the Act states that the timeframe for the Commission's
consideration of proposed Board rules should comply with paragraphs (I) through
(3) of Section 19@) of the Securities Exchange Act of 1934. Section 19(b)(2) requires
the Commission to approve a proposed rule (i.e., issue a n Order) or institute


PCAOB OVERSIGHT (AUDIT 4 1 2 )                                 SEPTEMBER 2 8 , 2 0 0 6
                                                                                              Page      8



proceedings to consider whether it should be disapproved within thirty-five days of
the proposed rule's notice of publication in the Federal Register. However, this time
period can be extended up to ninety days, if the Commission believes that the
extension is appropriate and provides its rationale in the Federal Register notice, or
if the PCAOB consents to a longer time period.
We reviewed fifteen PCAOB rules that had been approved by the Commission a s of
November 2005.3 Three rules were not approved within the required timeframe.
However, these three rules were approved within one to four days after the required
date.
The delay was caused by using the wrong date for monitoring the timeliness of the
rules (the staff used the date of the Commission's vote, rather than the date of the
Commission Order). The small delay did not cause any apparent harm.

       Recommendation E
       OGC should review this issue and provide guidance (i.e., use the date the
       Commission Order is signed for monitoring compliance with the Act's
       timeliness requirement for consideration of proposed Board rules) to OCA, if
       appropriate.
Documentation
We selected a judgment sample of five of seventeen rules to evaluate the adequacy
of the documentation maintained in OCA's official files. The files generally
demonstrated that the staff performed a thorough review of the rules. However,
documentation of the review could be improved (e.g., the files lacked the signed
Commission Order approving the rule). OCA has created a checklist to help ensure
that the files are complete.

       Recommendation F
       OCA should modify their checklist to include a copy of the signed Order.


DELEGATIONS OF AUTHORITY
As stated in the Background, within the Commission, OCA has primary oversight
responsibility for the PCAOB. However, the Commission has not formally delegated
authority to OCA, so Commission approval is required for most oversight decisions.
As the Commission acquires more experience with PCAOB oversight, delegations
may be appropriate (analogous to delegations granted to the Division of Market
Regulation for oversight of the Self-Regulatory Organizations).



 Seventeen rules were identified from the PCAOB's website. We excluded two rules. The Commission
 reviewed one of these rules on an accelerated basis (under Section 19(b)(3)(B) of the Exchange Act),
 while the other rule (Interim Professional Standards) was not subject to the review process (under
 Section 107(b)(2) of the Act).


PCAOB OVERSIGHT (AUDIT 4 1 2 )                                              SEPTEMBER 2 8 , 2 0 0 6
                                                                        Page      9


     Recommendation G
     OCA, in consultation with OGC, should consider whether to request
     delegations of authority for PCAOB oversight. If delegations would improve
     oversight, OCA should prepare a n action memorandum for Commission
     consideration of the delegations.




PCAOB OVERSIGHT (AUDIT 4 12)                               SEPTEMBER 28, 2006
                                                                                           Appendix


                                   MEMORANDUM


                                                                  September 22,2006

TO:                   Walter Stachnik


                                            bw
                      Office of Insoector General

FROM:                 Conrad Hewitt
                      Office of the Chief Accountant

RE:                   The Office of Inspector General's Review of the Commission's
                      Oversight of the Public Company Accounting Oversight Board


Introduction

       Thank you for the opportunity to provide written comments on the Office of
Inspector General's audit findings, conclusions and recommendations relating to your
review of the Commission's oversight of the Public Company Accounting Oversight
Board (PCAOB or the Board). We appreciate the hard work and cooperative efforts of
your staff in performing this review.

        As indicated in your report, the Office of the Chief Accountant (OCA) has played
a significant role in the Commission's oversight of the PCAOB since the inception of the
Board in 2002. OCA not only analyzes and comments on the PCAOB's professional
standards and rules, we also work with the Commission's other offices and divisions to
oversee virtually every aspect of the PCAOB's operations. For example, OCA teams
with the Office of the Executive Director (OED) to review the PCAOB's annual budget
and accounting support fee; we worked with the Office of Compliance Inspections and
Examinations on the first examination of the PCAOB's processes and procedures; and we
work with the Office of General Counsel (OGC) on various issues involving the Board's
authority, such as issues related to the issuance of SEC subpoenas on behalf of the
PCAOB.

       Below are responses to the audit findings, conclusions and recommendations in
your report that are addressed to the Office of the Chief Accountant. We understand that
other offices and divisions may respond separately.


Audit Reports

        This section of the report discusses the PCAOB's responsibility for preparing
annual financial statements, which are audited by an independent public accountant not
registered with the Board, and recommends that OCA consider recommending to the
Commission that the PCAOB engage its auditor to report on internal controls and
compliance with laws and regulations. The audit findings suggest that these reports could
help the Commission enhance its oversight and provide reasonable assurance that the
Board's controls and compliance were adequate.

        OCA previously has discussed with the PCAOB staff and with at least one current
member of the Board the advantages of the PCAOB having its auditor report on the
Board's internal control. The PCAOB has acknowledged the benefits of having the
auditor of its financial statements also audit its internal control; however, certain issues
have slowed its progress. Namely, because of the legal structure and mission of the
Board, it is unclear what professional, governmental or regulatory standards would be
used to evaluate the PCAOB's internal control. Similar issues would arise in identifying
a standard to use for the Board's compliance with laws and regulations.

       Nonetheless, during our review of the PCAOB's budget for 2007, we will
continue to work with the PCAOB to consider the appropriate standards to be used in
evaluating the PCAOB's internal control and compliance with laws and regulations and
to encourage the Board to engage its auditors to report on these matters. In connection
with the Commission's consideration of the PCAOB's budget, we will inform the
Commission of the status of these efforts.

Human Capital and Disaster Contingency Plans

        This section discusses the PCAOB's efforts to develop a human capital plan and a
disaster contingency plan. A human capital plan helps an organization determine the
knowledge, skills, and abilities that its employees need, based on the strategic direction of
the organization. A disaster contingency plan addresses an organization's ability to
resume operations and provide necessary guidance to accounting firms, within a few days
of a terrorist act or natural disaster. The audit findings indicate that the PCAOB has a
human capital plan, although it is inadequately documented, and is developing a disaster
contingency plan.

        The OIG7sfirst recommendation in this section is that OED should establish
policies and procedures to ensure that it adequately documents future reviews of the
PCAOB's human capital plan. The second recommendation is that OCA, in consultation
with OED and the Office of Information Technology, should review the Board's disaster
contingency plan when it is completed and provide comments to the Board and the
Commission, as appropriate. As part of the staffs review of the PCAOB's budget for
2007, we will request copies of the PCAOB's human capital plan and disaster
contingency plan, if complete, and review those plans. If a plan is not complete or needs
revision, wenwilldiscuss the relevant issues with the PCAOB staff and evaluate the plan
and any additional resources needed to complete or revise the plan. As suggested in your
recommendation, we will provide comments to the Commission and to the PCAOB as
appropriate.
Policies and Procedures

       This section describes areas of oversight in which Commission policies and
procedures still are needed such as appeals of PCAOB inspection findings, PCAOB
requests for subpoenas, removal or censure of Board members, and investigations of
misconduct by Board members or staff. OIG recommends that OCA, in consultation
with OGC and other affected offices, should develop policies and procedures for these
areas.

        The staff attempted to address some of these areas in the past. Soon afier the
Sarbanes-Oxley Act was enacted, the staff began drafting "Regulation PCAOB," which
was intended to address a number of PCAOB oversight issues including, among other
things, appeals of inspection reports. Due to a number of concerns, including the concern
that we were attempting to address too many subject areas at one time, the proposed
regulation did not progress. As a result, we have determined that we should address each
of these areas separately. The staff began this process by drafting a proposed rule on the
PCAOB budget approval process. This rule was adopted by the Commission on July 18,
2006. OCA intends to work with OGC and other affected offices to develop appropriate
rules, policies or procedures for the remaining areas addressed in this recommendation.

Proposed Rules

        The audit fmdings in this section indicate that, although the official files
demonstrated that the staff performed a thorough review of the PCAOB's proposed rules,
the documentation of the review could be improved by including a copy of the signed
order in each file. The findings acknowledge that OCA has created a checklist to help
ensure that its files are complete, and recommend that OCA modify its checklist to
include a copy of the signed order for each rule approved by the Commission. We have
modified our checklist to include a copy of the signed order and will obtain copies of
previously signed orders to complete existing files.

Delegations of Authority

        This section states that OCA has primary oversight responsibility for the PCAOB
and suggests that, as the Commission acquires more experience with PCAOB oversight,
delegations of authority to OCA may be appropriate. The findings indicate that
delegations analogous to those granted to the Division of Market Regulation for oversight
of the self-regulatory organizations may be appropriate. OIG recommends that OCA, in
consultation with OGC, should consider whether to request such delegations of authority
for PCAOB oversight. OIG further recommends that, if delegations would improve
oversight, OCA should prepare an action memorandum for Commission consideration of
the delegations.

       OCA, in consultation with OGC, has considered in the past whether delegations
of authority to OCA for certain oversight matters were appropriate. Based on the
Commission's high interest in PCAOB activities and the fact that the PCAOB is still a
relatively new and unique organization, however, we have determined that no delegation
is appropriate at this time. As we continue to drafi and propose oversight rules in the
future, we will consult with OGC to determine whether any delegations are appropriate
and, if so, consider whether to include those delegations in the proposed rulemaking.
Also, as we acquire more experience with PCAOB oversight, we will consider whether to
request delegations of authority from the Commission for other matters relating to the
Commission's oversight of the PCAOB.

Conclusion

       Thank you again for the opportunity to respond to your audit findings,
conclusions and recommendations on the Commission's oversight of the PCAOB. If you
have any questions or would like to discuss our responses in more detail, please contact
Dr. Zoe-Vonna Palmrose, Deputy Chief Accountant for Professional Practice, or Robert
Burns, OCA's Chief Counsel.
                                          MEMORANDUM

TO:            Walter Stachnik, Inspector General

FROM:          Diego T. Ruiz, Executive Director

DATE:          September 25,2006
                                                                    I
SUBJECT:       Comments on Audit of Oversight of PCAOB ('AuditNo. 412)

       Thank you for the opportunity to provide comments on your draft audit report on the Commission's
oversight of the Public Company Accounting Oversight Board (PCAOB). It is very helpful to have an
independent review of this important Commission function.

       As you know, the Office of the Executive Director (OED) is one of the primary participants in the
SEC staffs reviews of the PCAOB's budget and operations. OED plays no role in the Commission's
review of the PCAOB's policy-related proposals and actions, such as its regulatory activity, inspection
program, or enforcement efforts, except as those issues impact the PCAOB's budget planning.

         In general, OED agrees with the Recommendations in your report and plans to incorporate them
into its review of the PCAOB's 2007 budget proposals. Our specific comments are as follows:

           OED agrees in principle with your Recommendation A, which states that the Board should
           engage their auditor to report on the Board's internal controls and compliance with laws and
           regulations. Such reviews would indeed provide useful information to the SEC during its
           evaluations of the PCAOB budget and operations. However, as OCA points out in its
           comments on your audit report, it is not clear which standards the PCAOB should use in such
           reviews, given its unique structure. During the course of the staff evaluation of the Board's
           2007 budget, OED and OCA will work with the PCAOB to consider the appropriate standards
           and encourage such reviews, and the two offices will inform the Commission of these efforts as
           appropriate.

           Human capital planning is indeed an important strategic focus for the PCAOB, especially
           because its workforce is such a large portion of the PCAOB's budget and is so critical to the
           Board's ability to fulfill its mission. As suggested in your Recommendation B, OED and OCA
           will seek additional documentation fiom the PCAOB regarding its human capital planning
           during the upcoming review of its 2007 budget. In addition, the two offices will encourage the
           PCAOB to develop a formal human capital plan once its strategic plan has been completed.

           You correctly identify disaster contingency planning as an important area for the PCAOB to
           invest its energies and for the SEC to review. Together with OCA, OED will discuss these
           planning efforts with PCAOB staff, review its final plan, and provide comments to the Board
           and Commission as appropriate.

       Again, thank you for the opportunity to comment upon your draft audit report. If you have any
questions, please feel fiee to contact Ken Johnson, the Acting Chief Management and Program Analyst.
